<html>
<title> - THE NEED TO KNOW: INFORMATION SHARING LESSONS FOR DISASTER RESPONSE</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
  THE NEED TO KNOW: INFORMATION SHARING LESSONS FOR DISASTER RESPONSE

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 30, 2006

                               __________

                           Serial No. 109-143

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform



                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
27-721                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
------ ------

                      David Marin, Staff Director
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 30, 2006...................................     1
Statement of:
    Brennan, John, president and chief executive officer, the 
      Analysis Corp., McLean, VA; Donald F. Kettl, director, FELS 
      Institute of Government, University of Pennsylvania, 
      Philadelphia, PA; Brian A. Jackson, physical scientist, 
      RAND Corp.; and Lieutenant Steve Lambert, Virginia Fusion 
      Center, Virginia State Police..............................    69
        Brennan, John............................................    69
        Jackson, Brian A.........................................    89
        Kettl, Donald F..........................................    75
        Lambert, Steve...........................................   101
    Wells, Linton, II, Principal Deputy Assistant Secretary, 
      Networks and Information Integration, U.S. Department of 
      Defense; Peter F. Verga, Principal Deputy Assistant 
      Secretary for Homeland Defense, U.S. Department of Defense; 
      and Vance Hitch, Chief Information Officer, U.S. Department 
      of Justice.................................................    21
        Hitch, Vance.............................................    51
        Verga, Peter F...........................................    37
        Wells, Linton, II........................................    21
Letters, statements, etc., submitted for the record by:
    Brennan, John, president and chief executive officer, the 
      Analysis Corp., McLean, VA, prepared statement of..........    72
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    16
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia, prepared statement of...................     4
    Hitch, Vance, Chief Information Officer, U.S. Department of 
      Justice, prepared statement of.............................    54
    Jackson, Brian A., physical scientist, RAND Corp., prepared 
      statement of...............................................    91
    Kettl, Donald F., director, FELS Institute of Government, 
      University of Pennsylvania, Philadelphia, PA, prepared 
      statement of...............................................    77
    Lambert, Lieutenant Steve, Virginia Fusion Center, Virginia 
      State Police, prepared statement of........................   103
    Verga, Peter F., Principal Deputy Assistant Secretary for 
      Homeland Defense, U.S. Department of Defense, prepared 
      statement of...............................................    39
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................    11
    Wells, Linton, II, Principal Deputy Assistant Secretary, 
      Networks and Information Integration, U.S. Department of 
      Defense, prepared statement of.............................    00


  THE NEED TO KNOW: INFORMATION SHARING LESSONS FOR DISASTER RESPONSE

                              ----------                              


                        THURSDAY, MARCH 30, 2006

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:13 a.m., in 
room 2154, Rayburn House Office Building, Hon. Tom Davis 
(chairman of the committee) presiding.
    Present: Representatives Tom Davis, Platts, Miller, 
Marchant, Dent, Schmidt, Waxman, Cummings, and Van Hollen.
    Staff present: David Marin, staff director; Steve Castor, 
counsel; Chas Phillips, policy counsel; Rob White, press 
secretary; Victoria Proctor, senior professional staff member; 
Teresa Austin, chief clerk; Sarah D'Orsie, deputy clerk; Phil 
Barnett, minority staff director/chief counsel; Michael 
McCarthy, minority counsel; Earley Green, minority chief clerk; 
and Jean Gosa, minority assistant clerk.
    Chairman Tom Davis. The committee will come to order. Good 
morning. Welcome. A quorum being present, the committee will 
come to order. I would like to welcome everybody to today's 
hearing on information sharing and the situational awareness 
during the management of an emergency. The purpose of this 
hearing is to reignite public discussion and debate on barriers 
to information sharing among agencies and highlight practices 
and procedures that could be effective in encouraging and 
enhancing information sharing among diverse entities.
    The Government needs to be able to identify threats of all 
types and meet or defeat them. Our success depends on 
collecting, analyzing, and appropriately sharing information 
found in data bases, transactions, and other sources. Both the 
9/11 Commission report and the Select Katrina Committee report 
made it clear there is a lack of effective information sharing 
and analysis among the relevant public and private sector 
entities.
    We are still an analog Government in a digital age. We are 
woefully incapable of storing, moving, and accessing 
information, especially in times of crisis. Many of the 
problems in these times can be categorized as ``information 
gaps''--or at least problems with information-related 
implications, or failures to act decisively because information 
was sketchy at best.
    Unfortunately, no Government does these things well, 
especially big governments. The Federal Government is the 
largest purchaser of information technology in the world, by 
far, and one would think that we could share information by 
now.
    The 9/11 Commission found ``the most important failure was 
one of imagination.'' Katrina was primarily a failure of 
initiative. But there is, of course, a nexus between the two. 
Both imagination and initiative--in other words, leadership--
require good information. And a coordinated process for sharing 
it. And a willingness to use information--however imperfect or 
incomplete--to fuel action.
    With Katrina, the reasons reliable information did not 
reach more people more quickly were many, for example: the lack 
of communication and situational awareness paralyzed command 
and control; DHS and the States had difficulty coordinating 
with each other, which slowed the response; DOD lacked an 
information sharing protocol that would have enhanced joint 
situational awareness and communication between all military 
components.
    Information sharing and situational awareness will always 
be predicated to an effective disaster response. With 
approximately 60 days remaining before the start of hurricane 
season on June 1st, this hearing will examine how the lessons 
learned regarding information sharing in the context of law 
enforcement, counterterrorism, and defense can be applied to 
disaster response.
    Information sharing is the backbone of successful emergency 
preparation and response efforts. Historically, however, the 
Federal Government has been so compartmentalized, information 
sharing has been a pipe dream. The Federal Government is faced 
with the difficult task of transforming from a ``need-to-know'' 
information sharing environment to a ``need-to-share.'' In 
addition, the bureaucratic stovepipe arrangement in Federal 
agencies restricts the Government's flexibility to analyze 
information quickly, assess the need for services, and respond 
effectively in emergency situations.
    Governmentwide information policy authority rests with the 
White House, in the Office of Management and Budget. I think 
the White House, through OMB, has a critical role in 
establishing and implementing policies and procedures for 
Federal information sharing. Whether we are discussing disaster 
management, counterterrorism, or law enforcement, overarching 
guidance and oversight to help Federal agencies establish a 
structure for partnering with one another and local and State 
organizations.
    Given the lessons learned from Katrina, emergency managers 
and officials are obligated to the American people to produce a 
more nimble, effective, and robust response to predictable 
natural disasters. How can we avoid the inadequate information 
sharing and murky situational awareness that characterized the 
Government response to Katrina? Are impediments to more 
effective information sharing primarily technological, 
structural, cultural, or bureaucratic in nature?
    The committee's hearing will include a review of the issues 
raised by the Select Committee Report. This hearing is not 
intended to review the facts surrounding Hurricane Katrina, but 
will use the disaster to highlight instances where 
collaboration and information sharing among agencies is 
lacking. In addition, the committee will explore the barriers 
to effective information sharing, learn what entities--
including State, local, defense, intelligence, homeland 
security, and industry--are particularly adept at information 
sharing, and examine the models, policies, and methods which 
have proven successful. Finally, the committee is interested in 
learning about whether there is a need for additional 
legislation, guidance, procedures, or resources to facilitate 
the information sharing priorities outlined by the witnesses.
    The committee views this hearing as a new beginning on the 
road to improving information sharing among Government agencies 
and between the public and private sectors. To this end, 
private sector stakeholders and other key agency personnel, 
including representatives from the Department of Homeland 
Security and the Office of the Director of National 
Intelligence, will be asked to testify at future hearings.
    [The prepared statement of Chairman Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T7721.001
    
    [GRAPHIC] [TIFF OMITTED] T7721.002
    
    [GRAPHIC] [TIFF OMITTED] T7721.003
    
    [GRAPHIC] [TIFF OMITTED] T7721.004
    
    [GRAPHIC] [TIFF OMITTED] T7721.005
    
    Chairman Tom Davis. I would now recognize the distinguished 
ranking member, Mr. Waxman, for his opening statement.
    Mr. Waxman. Thank you, Mr. Chairman, for holding this 
hearing to examine issues raised by the failed response to 
Hurricane Katrina. The report of the Select Committee on 
Hurricane Katrina identified widespread and serious problems 
with our Nation's disaster preparedness and response. The 
Government Reform Committee must take the next steps in finding 
solutions to these problems so that the Government can better 
help our citizens through the next disaster.
    This hearing on how to improve information sharing during a 
disaster is a good first step for our committee to take. I hope 
we can continue to work together on oversight of the Department 
of Homeland Security and other Federal agencies to make sure 
that better communications procedures and technology are put 
into place.
    Right now, across the river in Alexandria, admitted al 
Qaeda member Zacarias Moussaoui is on trial, facing the death 
penalty for his role in the September 11th attacks. As we all 
now know, Mr. Moussaoui was in custody weeks before September 
11th. His attendance at flight school raised alarms among some 
experienced law enforcement and intelligence professionals 
about a possible hijacking plot. But as the 9/11 Commission 
documented, the Government never pulled together the various 
threads of information that could have detected the September 
11th plot. Better information sharing was one of the key 
recommendations that the 9/11 Commission made.
    Hurricane Katrina showed us that serious flaws remain in 
the Government's crisis prevention and response communications 
capabilities.
    The Katrina investigation revealed that President Bush, 
Homeland Security Secretary Chertoff, and other top officials 
were unaware of the magnitude of the disaster facing New 
Orleans until Tuesday, August 30th, a day after the levees 
broke. They were unaware of this even though the first reports 
of levee breaches came as early as 8 a.m. on Monday, and the 
levee breaches were confirmed by late afternoon that day.
    In fact, as late as 2 weeks after landfall, President Bush 
continued to insist that the levees had not breached until 
Tuesday and that there was a sense of relaxation at the White 
House on Monday night and Tuesday morning because he and other 
top officials believed that New Orleans had ``dodged a 
bullet.''
    This was an inexcusable failure of the most senior 
officials in our Government to comprehend and act on urgent 
warnings and vital information.
    The second problem causing a lack of information was 
technological. Katrina was such a powerful storm that it 
knocked out phone lines and radio towers throughout a three-
State region, leaving local officials unable to communicate 
their needs to State and Federal officials who had the 
resources to help. Some of this was unavoidable. Any large 
enough disaster is bound to damage or destroy 
telecommunications infrastructure. But there are options, like 
a satellite phone, that could provide redundancy and allow 
communications when the regular system is down. Yet these were 
not in place.
    I understand that we invited officials from the Department 
of Homeland Security to testify today, but they declined the 
invitation. DHS clearly has a primary responsibility for 
information sharing during disasters, and I hope that we will 
have another hearing where we can hear from representatives of 
the Department of Homeland Security.
    I want to give my thanks to all the witnesses who did 
appear today before us, and I am looking forward to their 
testimony.
    Thank you.
    [The prepared statement of Hon. Henry A. Waxman follows:]

    [GRAPHIC] [TIFF OMITTED] T7721.006
    
    [GRAPHIC] [TIFF OMITTED] T7721.007
    
    [GRAPHIC] [TIFF OMITTED] T7721.008
    
    [GRAPHIC] [TIFF OMITTED] T7721.009
    
    Chairman Tom Davis. Thank you.
    Any other Members wish to make statements?
    [No response.]
    Chairman Tom Davis. Members will have 7 days to submit 
opening statements for the record.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC] [TIFF OMITTED] T7721.010

[GRAPHIC] [TIFF OMITTED] T7721.011

[GRAPHIC] [TIFF OMITTED] T7721.012

[GRAPHIC] [TIFF OMITTED] T7721.013

[GRAPHIC] [TIFF OMITTED] T7721.014

    Chairman Tom Davis. We will now recognize our first panel: 
Mr. Peter Verga, the Principal Deputy Assistant Secretary of 
Defense for Homeland Defense, U.S. Department of Defense; Dr. 
Linton Wells, the Principal Deputy Assistant Secretary of 
Defense, Networks and Information Integration, U.S. Department 
of Defense; and Mr. Vance Hitch, the CIO of the Department of 
Justice.
    It is our policy that we swear you in before your 
testimony, so if you would just rise and raise your right 
hands.
    [Witnesses sworn.]
    Chairman Tom Davis. Thank you very much.
    Mr. Verga, Dr. Wells, who wants to go first? OK. Dr. Wells, 
we will start with you and then go to Mr. Verga and then, Mr. 
Hitch, you will be cleanup. Thank you very much.

   STATEMENTS OF LINTON WELLS II, PRINCIPAL DEPUTY ASSISTANT 
     SECRETARY, NETWORKS AND INFORMATION INTEGRATION, U.S. 
    DEPARTMENT OF DEFENSE; PETER F. VERGA, PRINCIPAL DEPUTY 
 ASSISTANT SECRETARY FOR HOMELAND DEFENSE, U.S. DEPARTMENT OF 
   DEFENSE; AND VANCE HITCH, CHIEF INFORMATION OFFICER, U.S. 
                     DEPARTMENT OF JUSTICE

                   STATEMENT OF LINTON WELLS

    Dr. Wells. Thank you, Chairman Davis, Ranking Member 
Waxman, and distinguished members of the committee, for 
inviting me here today to discuss this important topic. I would 
like to introduce Ms. Deb Filippi, the DOD Chief Information 
Officer's Information Sharing Executive. She is charged with 
strengthening our information sharing.
    While the Department of Defense Chief Information Officer 
is responsible for information sharing within DOD and with our 
partners, since the specific focus of this hearing is on 
following up on the report on Hurricane Katrina, I would like 
to pass the microphone to Mr. Verga. I would like, however, to 
note that everything that we have learned about information 
sharing from humanitarian assistance in tsunami and Katrina, to 
stabilization and reconstruction operations in Afghanistan and 
Iraq teaches us that successful information sharing and 
collaboration is much more than just technology. It involves 
policies and procedures, social networks, organizational 
training, and as the chairman has noted, leadership. All of 
these must be co-evolved with the capabilities in order to 
achieve successful outcomes.
    I have submitted written testimony. I would like it entered 
for the record. I look forward to working with the Congress and 
industry on this important topic. I am ready to answer your 
questions.
    [The prepared statement of Dr. Wells follows:]

    [GRAPHIC] [TIFF OMITTED] T7721.015
    
    [GRAPHIC] [TIFF OMITTED] T7721.016
    
    [GRAPHIC] [TIFF OMITTED] T7721.017
    
    [GRAPHIC] [TIFF OMITTED] T7721.018
    
    [GRAPHIC] [TIFF OMITTED] T7721.019
    
    [GRAPHIC] [TIFF OMITTED] T7721.020
    
    [GRAPHIC] [TIFF OMITTED] T7721.021
    
    [GRAPHIC] [TIFF OMITTED] T7721.022
    
    [GRAPHIC] [TIFF OMITTED] T7721.023
    
    [GRAPHIC] [TIFF OMITTED] T7721.024
    
    [GRAPHIC] [TIFF OMITTED] T7721.025
    
    [GRAPHIC] [TIFF OMITTED] T7721.026
    
    [GRAPHIC] [TIFF OMITTED] T7721.027
    
    [GRAPHIC] [TIFF OMITTED] T7721.028
    
    [GRAPHIC] [TIFF OMITTED] T7721.029
    
    Chairman Tom Davis. Thank you very much.
    Mr. Verga.

                  STATEMENT OF PETER F. VERGA

    Mr. Verga. Thank you, Mr. Chairman, and I appreciate the 
opportunity, along with the distinguished members of the 
committee, to come here to address today the Department of 
Defense information sharing lessons learned from disaster 
response.
    Whether on the battlefield or in a disaster area, having 
the right information at the right time in order to take the 
right action can mean the difference between life or death, 
success or failure. DOD has a great deal of experience in the 
development and implementation of the essential policies, 
procedures, and technologies to enable effective information 
sharing and shared situational awareness.
    That shared situational awareness--a common perception and 
understanding of the operational environment and its 
implications--is a core capability recognized in DOD's Strategy 
for Homeland Defense and Civil Support, which was published in 
June 2005.
    The Quadrennial Defense Review, just recently completed, 
also recognizes the importance of shared situational awareness 
and calls for an information sharing strategy to guide 
operations with Federal, State, local, and coalition partners. 
The strategy for Homeland Defense and Civil Support supports 
this task and promotes the integration and sharing of 
applicable DOD capabilities, equipment, and technologies with 
Federal, State, local, and tribal authorities, and with the 
private sector.
    While we are always striving to do better, DOD's approach 
to and capabilities for information sharing and shared 
situational awareness have proven effective over time. This 
performance is largely due to several organizational and 
cultural conditions within the Department.
    First, DOD is a strategy-driven organization that plans for 
contingencies. Even as we marshal our currently available 
capabilities and resources to address a current situation, we 
are constantly planning and preparing for a full range of 
future contingencies.
    As part of this planning culture, DOD expects and plans for 
complexity. We plan, for example, to deploy to and operate in 
regions where the supporting infrastructure, like roads, 
bridges, or communications, does not exist or has either been 
destroyed or seriously damaged.
    Second, DOD has a highly disciplined yet flexible, multi-
year focused budget and resourcing process that develops the 
capabilities necessary to deal with current and future 
contingencies.
    And, third, as a military organization, DOD exercises unity 
of command over Federal military forces, DOD civilian 
personnel, and contractors at the strategic, operational, and 
tactical command echelons. This unity of command ensures both a 
unity of effort and an economy of force, that is, the right 
capabilities and forces in the right numbers.
    Within the Department, DOD's command and control structure 
facilitates effective information flow between command 
echelons, whether the contingency is at home or abroad. When at 
home, a joint task force is established to command and control 
the Federal military forces, guided by the Commander of U.S. 
Northern Command in the joint operations area of a disaster. 
The NORTHCOM Commander in turn is responsible for ensuring that 
the joint task force receives the information it needs and 
provides information reported by the joint task force to the 
chairman of the Joint Chiefs of Staff and the Secretary of 
Defense.
    Outside of DOD, several venues exist for information 
sharing between civilian and military and Federal, State, 
tribal, private sector, and nongovernmental organizations.
    First, at the Federal headquarters level, incident 
information sharing, operational planning, and deployment of 
Federal resources are monitored by the Homeland Security 
Operations Center of the Department of Homeland Security, where 
DOD maintains a 24-hour-a-day/7-day-a-week presence. The HSOC, 
as it is known, facilitates interagency information sharing 
activities to enable the assessment, prevention, or resolution 
of a potential incident.
    Second, strategic-level interagency incident management is 
facilitated by the Interagency Incident Management Group, which 
also serves as an advisory body to the Secretary of Homeland 
Security. When activated, the Department of Defense provides a 
senior-level representative to that IIMG.
    Third, closer to the area of an incident, a Joint Field 
Office is established to provide a focal point for incident 
oversight and coordination of response and recovery actions. 
When established, the Department of Defense posts liaisons 
within the Joint Field Office known as Defense Coordinating 
Officers.
    And, fourth, States usually maintain an Emergency 
Operations Center at which operational information sharing and 
resource coordination and support of on-scene efforts during a 
domestic incident activities normally take place during an 
incident and, when required, the Department will also deploy 
those Defense Coordinating Officers there.
    Additionally, every combatant commander operates a Joint 
Interagency Coordination Group, which is a multi-functional, 
advisory element that represents the Federal civilian 
departments and agencies and facilitates information sharing. 
It provides regular, timely, and collaborative day-to-day 
working relationships between civilian and military operational 
planners.
    Mr. Chairman, again, thank you very much for the 
opportunity to appear before you today. Thank you very much for 
the resources provided by the Congress and the American people 
to enable the Department of Defense to organize, train, and 
equip to meet the full range of DOD's missions, and I look 
forward to any questions that you may have.
    [The prepared statement of Mr. Verga follows:]

    [GRAPHIC] [TIFF OMITTED] T7721.030
    
    [GRAPHIC] [TIFF OMITTED] T7721.031
    
    [GRAPHIC] [TIFF OMITTED] T7721.032
    
    [GRAPHIC] [TIFF OMITTED] T7721.033
    
    [GRAPHIC] [TIFF OMITTED] T7721.034
    
    [GRAPHIC] [TIFF OMITTED] T7721.035
    
    [GRAPHIC] [TIFF OMITTED] T7721.036
    
    [GRAPHIC] [TIFF OMITTED] T7721.037
    
    [GRAPHIC] [TIFF OMITTED] T7721.038
    
    [GRAPHIC] [TIFF OMITTED] T7721.039
    
    [GRAPHIC] [TIFF OMITTED] T7721.040
    
    [GRAPHIC] [TIFF OMITTED] T7721.041
    
    Chairman Tom Davis. Thank you.
    Mr. Hitch, thanks for being with us.

                    STATEMENT OF VANCE HITCH

    Mr. Hitch. Good morning and thank you, Mr. Chairman and 
members of the committee, for the invitation to speak to you 
today. I am the Chief Information Officer of the Department of 
Justice, and next month will mark my 4-year anniversary with 
the Department. Today I will testify about our approach to 
information sharing.
    The Department of Justice is committed to helping improve 
the ability of law enforcement and homeland security first 
responders to share national security information. This may 
include classified intelligence reports, criminal history 
records, or traffic stops. The key to all of this, though, is 
the data, helping over 180,000 law enforcement personnel follow 
standards so that they can safely and securely share photos, 
field reports, and evidence with a fellow officer.
    First, I will focus on our umbrella program, the Law 
Enforcement Information Sharing Program. This program includes 
both internal DOJ sharing, such as between the Drug Enforcement 
Agency and ATF, and the Federal sharing with State and local 
law enforcement agencies and officers across the country.
    The LEISP strategy is the result of a collaborative process 
including senior leadership from DOJ component agencies and 
representatives from across the national law enforcement 
community. LEISP is a program, not an information system. It 
addresses barriers to information sharing and creates a forum 
for collaboration on how existing and planned systems will be 
conducted and coordinated in a unified manner for information 
sharing purposes. LEISP delineates guiding principles, a policy 
framework, and functional requirements that are necessary to 
facilitate multi-jurisdictional law enforcement information 
sharing. LEISP establishes the Department's commitment to move 
from a culture of ``need to know'' toward a culture of ``need 
to share'' in which information is shared as a matter of 
standard operating procedure.
    With our partners at DHS and the Department of Defense, we 
are making great strides in sharing fingerprints across 
boundaries. What we refer to as the Interoperability program is 
showing great returns as fingerprints captured in theater in 
Iraq are being sent to the FBI in West Virginia for comparison 
and coordination. DHS, under the US-VISIT program, has access 
to this data, and all three agencies are working on new 
standards to make this sharing even more timely and efficient.
    As this committee is analyzing post-Katrina issues, I 
thought it was appropriate to mention two of the successes we 
had in the time immediately following the hurricane. As the 
Marshals Service moved prisoners from the New Orleans area, 
they faced the challenge of coordinating buses and new prison 
space. To complicate matters, the prisoners switched arm bands 
in hopes of confusing their guards. The Marshals used online 
photos and other descriptive data, such as scars, marks, and 
tattoos, from the joint automated booking system to ensure that 
valid identities were maintained. Another success story was the 
development and implementation of the National Sex Offender 
Public Registry through the support of the Bureau of Justice 
Assistance. This Web site was invaluable to law enforcement as 
it helped cities like Houston and Baton Rouge identify known 
offenders who had evacuated to their city. While this Web site 
was limited to one type of criminal, we see this as a model for 
other systems under development.
    Now I would like to address a key question. What are some 
of the keys to success that we have found in planning and 
developing systems that share information within the law 
enforcement community?
    The first is shared management. It is needed to create a 
federation of trust within the information sharing community. 
For example, the Attorney General's Global Information Sharing 
Initiative has brought together national leaders and law 
enforcement to help us develop our LEISP strategy and programs. 
Likewise, the Criminal Justice Information System Advisory 
Policy Board [APB], provides ongoing governance and working 
groups to help us as we build and operate information sharing 
systems, including criminal histories, incident reporting, 
uniform crime reporting, and fingerprints. Both the Global 
group and the CJIS APB are comprised of numerous State and 
local stakeholders.
    The second key to success is the development of standards, 
which is an area where the Federal Government is expected to 
provide leadership. Two examples are the Global Justice XML 
Data Model and the National Information Exchange Model. Groups 
such as Global are important for setting, communicating, and 
maintaining national standards and a common vocabulary.
    The widespread availability and use of Web services and 
commercial technologies will improve information standards over 
time. The Federal Government can help promulgate these 
standards through incentives such as grant programs and 
targeted technical assistance.
    In response to the next disaster, data must be accessible 
from many places via many methods of telecommunications. Web-
based systems, as opposed to those tied to a personal computer, 
allow an evacuated law enforcement officer, like the New 
Orleans P.D., to relocate to a city such as Irvine, TX, and 
still have access to their data. As long as the system has 
adequate back-up and recovery capabilities, many will be able 
to complete their work from alternate work locations. Katrina 
was a not-so-subtle reminder to Government personnel of the 
importance of continuity of operations and proper planning.
    In closing, I want this committee to understand that the 
law enforcement information is being shared broadly at a local 
and regional level. The Department of Justice, in partnership 
with many Federal agencies, is attempting to make critical 
information exchanges more effective, more efficient, and more 
secure for our customers across the United States. We have many 
efforts underway that are validating our approach and pushing 
new concepts so that law enforcement personnel no longer need 
to think about sharing but, rather, it comes naturally and they 
share as a matter of practice.
    Thank you for your time this morning, and I will be happy 
to answer any questions that you may have.
    [The prepared statement of Mr. Hitch follows:]


    [GRAPHIC] [TIFF OMITTED] T7721.042
    
    [GRAPHIC] [TIFF OMITTED] T7721.043
    
    [GRAPHIC] [TIFF OMITTED] T7721.044
    
    [GRAPHIC] [TIFF OMITTED] T7721.045
    
    [GRAPHIC] [TIFF OMITTED] T7721.046
    
    [GRAPHIC] [TIFF OMITTED] T7721.047
    
    Chairman Tom Davis. Well, thank you very much.
    Let me start. This may not be a question you want to answer 
here. It is really to all of you. But information sharing, is 
this an issue that just cannot be overcome given agency 
structures and the congressional authorization and the 
appropriation process? I mean, we do things here to basically 
create stovepipes, too, just the way that we authorize, the way 
we appropriate. We have turf battles up here over the way 
committees operate. How would you suggest dealing with 
stovepipes, oversight, and funding? And how does that get into 
the mix of getting greater information sharing? Does anybody 
want to take a stab at that? Dr. Wells.
    Dr. Wells. I will start and I will pass to my colleagues. 
Since information sharing is a human activity, there are 
certainly going to be cultural and organizational biases that 
have to be addressed in the process of doing it. I would 
actually say that I think the cultural issues are probably 
significantly more important than the technical issues, given 
where we are today.
    One of the things that the Department of Defense has done 
over the past several years is to do a series of demonstrations 
that we have called Strong Angel, and they have looked at not 
only the capabilities but all the sociological and, for us the 
military, doctrinal issues needed to overcome some of the 
information sharing.
    One of the things in tsunami, for example, that we learned 
which applied to Katrina was we sent some people down there--a 
military doctor, a civilian doctor, and a retired Navy pilot--
and what happened when they got to Jakarta is the two doctors 
were welcomed with abrazos by the nongovernmental organizations 
there because they had experience working together in Kosovo 
and Africa and places like this. The Navy pilot could go on 
board the carrier ``Lincoln'' and fit right into the aviation 
community.
    What they found a few days later when they got together was 
that the military was prohibited by policy from sharing 
information outside the military boundaries unless asked. The 
nongovernmental organizations didn't know they had to ask and 
didn't know how to ask. Once those two groups got together, 
they were able to make enormous progress very quickly in 
sharing information. It was an issue of policy and procedures, 
not one of technology.
    We applied some of this to Katrina, and there is an 
extensive exercise program that Northern Command is working on 
in preparation for the summer hurricane season to do this as 
well, to not only deal with the technologies but also bring 
together those groups of people that need to be able to cross 
these boundaries in communications. So I think that is at least 
as important a piece as any technological part.
    Go ahead.
    Mr. Hitch. Mr. Chairman, I have been in the Federal 
Government now for 4 years, and I would observe that the 
hardest things for me to accomplish had been to work across 
departments. So just the size of the organization is a barrier 
to communications. But I do think there are mechanisms in place 
that can make this more successful.
    One that I would hold up as an example in the area of 
information sharing is the relatively recent identification 
within the DNI of the program manager's office, who is 
specifically chartered to come up with an information sharing 
environment, first to make sure that we are sharing terrorism 
information, but then more broadly to make sure that we're 
doing the things that we need to do to share information across 
Government departments. And this is something that I 
participate in on a weekly basis. We are having weekly cross-
governmental meetings where we are actually on a very 
aggressive schedule to develop the concept of operations and 
the technology that is necessary to make sure that we are 
sharing information successfully.
    The program that I mentioned that we have at Justice, the 
Law Enforcement Information Sharing Program, is something that 
I think I can bring to that group, because we have tried to do 
the same thing within our own community in law enforcement, and 
the DNI is actually trying to accomplish the same thing across 
Government.
    I would say this is a good example because there does need 
to be a mechanism for bringing people together under some sort 
of--some appointed group who has a leadership authority, and 
that is the case of the program manager. So I think that is a 
good example.
    In the case of emergency response and so forth, you know, 
the Department of Justice is not primarily a first responder 
organization, but in the Katrina situation, we did operate 
pretty effectively in our own community, within the law 
enforcement community. And I think that we share some traits 
with our DOD brethren in terms of, you know, having a command-
and-control structure that is fairly regimented within the law 
enforcement community, and also the idea of we know that 
emergencies are going to happen, so we plan for them and we 
practice them.
    So I think those are some things that I observed in my time 
in Government that has been successful and I think were the 
reasons for some of the success that we had in responding as we 
did in Katrina.
    Chairman Tom Davis. Do you think the appropriations process 
plays a negative role in this, the way we appropriate up here?
    Mr. Hitch. I think certainly it makes it more difficult. 
The appropriations process is a challenge for us as individuals 
trying to get support for the important programs that we are 
pursuing. But, once again, I am hoping--this is a little bit 
more hope than experience--that through the DNI, that will be a 
help in making sure that we get the support across 
appropriations groups and that somehow that will get the 
message across the line.
    Personally, I have had reasonable success. In working with 
our appropriators, I think they understand the importance of 
the programs for information sharing and how important that is 
to us, not only for emergencies like Katrina but for, you know, 
responding to the counterterrorism challenge that we had after 
September 11th, and a lot of our programs are focused in that 
way. And so I think our appropriators have been reasonably 
responsible and responsive in helping me deal with those 
issues.
    Chairman Tom Davis. OK. Thank you.
    Do you have any comment on the appropriation process, 
either of you?
    Mr. Verga. I would only add one comment to what my 
colleagues have said, and that is that when we talk about 
information sharing as a problem to be overcome, it is good to 
keep in mind that it is one of those problems that does not 
have an end state that you can finally reach. There will always 
be more information to be shared than there are mechanisms for 
sharing it. And so I think the fact that we have made 
significant progress over the last 3 or 4 years I think shows 
us that progress can be made, but I don't know that we will 
ever reach an end state where people will be satisfied that all 
the information is being shared to the degree they would like 
to have it shared.
    Chairman Tom Davis. Yes, Dr. Wells?
    Dr. Wells. Two things to go with it.
    First of all, as we share information, there is such a 
thing as too much information, and one can--I have heard people 
complain now that so much information is being shared that they 
are drowning in data and that, if you will, the signal-to-noise 
ratio of valuable information to just useless makes it hard for 
them to find the nuggets. And so I think it is important to not 
only share, but share what is important for the problem at 
hand.
    Chairman Tom Davis. OK. Thank you.
    Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. I want to 
thank you all for your testimony.
    As I see it, we have two general categories of failure to 
communicate. You have the one where, I guess, agencies are not 
communicating properly. Then you have another one with regard--
when you look at Katrina, with regard to communications 
equipment. And I got to tell you, when I read that back a few 
years ago, back when there was the Oklahoma bombing back in 
1995, we had communication equipment problems. It is almost 
shocking to the conscience that we could come all the way up to 
2005, in the greatest country, in the most powerful country, 
and one of the most technologically advanced countries in the 
world--in the world--and still have those kinds of problems.
    It is interesting to note that when the folks from my 
State, Maryland, went down to the Gulf Coast, they discovered, 
Mr. Chairman, that they had better equipment and were better 
able to communicate than the FEMA folk, which was incredible to 
me. So that tells me that apparently the equipment is out 
there. The question is, you know, whether there are standards 
for communication equipment. In other words, I understand they 
were on different frequencies and all that kind of thing.
    But I think that the thing that bothers me as I listened to 
all the testimony this morning is I wonder if we will be right 
back here 10 years from now, in other words, whether we will be 
saying the same things. Other problems will have occurred by 
then, and people will have died and people will have been in a 
position where, in a matter of less than, I guess, a 100-mile 
radius they cannot even communicate with each other.
    So tell me, what are we doing with regard to equipment? 
What are we doing with regard to standards so that people can 
communicate? And keep in mind when you look at the data and you 
talk to the people in the Gulf Coast, you know what they said? 
They have said it over and over again. ``We were not so much 
concerned about the fact that we had a disaster. We knew that 
those kind of things happen.'' They said that they felt 
abandoned as Americans, and part of that abandonment, I think, 
comes from the failure of us to be able to have simple 
communications, for me to be able to communicate across the 
street. And this is the United States.
    I am just trying to figure out what are we doing about 
that. This is now our watch. Hopefully we have learned a lot 
from Katrina. I pray that we have. And if it is under our 
watch, what do we do from here? I mean, what are we able to 
say? What is on the drawing board? And what do you see 
correcting that communications problem?
    Who is most appropriate to answer that? I guess you, Mr. 
Hitch?
    Mr. Hitch. I don't know that I am the most appropriate, but 
I will take the first shot.
    Mr. Cummings. All right.
    Mr. Hitch. I think, as I mentioned in my testimony, the 
standards issue is one that is being addressed and it is 
actually expected of the Federal Government. It is something 
that we are expected to do and we should be doing, and I think 
we are finally getting to the point where we are doing it. And 
I mentioned a couple examples in my testimony of some standards 
that have been kind of where the Department of Justice has 
taken the leadership role.
    There is a program that I did not mention but that is in 
the written testimony called the IWN, Integrated Wireless 
Network. That is where law enforcement officers across the 
country still use radio communications. In the near term, in 
the not-too-distant future, it will be other forms of 
communication, but right now it is a lot of radios.
    So we have a major program called IWN to set standards and 
to establish a nationwide network for law enforcement across 
the country. It is a cross-departmental effort between the 
Department of Justice in the lead, Department of Homeland 
Security, Department of Treasury, where between those three 
departments that is most of the law enforcement in the United 
States, to get them all on a common network with common 
equipment and common standards and all that kind of stuff. So 
that will help a lot.
    So there are efforts, and on a local level, part of that 
program was something we called the 25 Cities Project, where we 
actually go in and kind of take each city and see what the 
problems are there and just try to help them solve them. In 
some cases, it was buying a piece of equipment. In some cases, 
it was providing training. So there are a lot of different 
things that cause communications problems that are not just all 
technical.
    In terms of response to a disaster, in some of the examples 
that you alluded to where you could not communicate across the 
street and things like that, one of the things that I think are 
real lessons learned for CIOs like myself is the importance of 
back-up. Now, everybody for decades has known that you should 
have back-up for your information systems. But something like 
Katrina just brings that point home so clearly that the 
survivability of our systems are critical.
    You know, as information systems have advanced and our 
workers have become more and more a part of their everyday 
life, we depend on them. So if they are without them for a 
period of time, they are at a loss. They can't do their job.
    So taking those systems away and not having adequate back-
up for those systems in time of emergency is just as bad as not 
giving them the system to begin with.
    So the term ``survivability'' and how do we provide for 
that, and actually making sure that we are investing in the 
survivability of our systems is, I think, a real lesson 
learned.
    In some cases where you--in Katrina, you were missing many 
layers of infrastructure and kinds of capabilities. You were 
missing the power. So if you were--electric power. So if your 
systems were all dependent on electric power and you had no 
back-up, battery back-up or anything else, you were out. In 
some cases, the back-up was gasoline-fired engines, and 
gasoline was not available either. So if your back-up depended 
on gasoline--first on electricity and then on gasoline, you 
were without. So it is really looking at what are the disasters 
that we are trying to address, what are the ones we have to 
plan for, and what kind of back-up is going to be needed in 
order to provide survivable systems under those circumstances. 
I think that is the biggest lesson from a technical standpoint.
    The standards issues that you mentioned I think are real, 
and I think we are making a lot of progress in those areas.
    Mr. Cummings. Do we have any timetable for those standards? 
I mean particularly when you consider the fact that a lot of 
the same kinds of problems--if we had a terrorist attack, we 
would need the same kinds of communications systems or 
whatever. I mean, have you all set a timetable to try to have 
that done?
    Mr. Hitch. Yes.
    Mr. Cummings. And as you were talking, I couldn't help but 
think about the fascination that my daughter, who is now a 
grown-up--I will never forget when she saw--you know, she said 
she couldn't believe that we were communicating, when she was a 
little girl, communicating on Earth to the Moon. To the Moon. 
She said, ``Daddy, that's a joke.'' And then I think about how 
we are not even being able to communicate within a city, you 
know, it is just fascinating to me.
    Mr. Hitch. Right. In the case that I gave you of the 
Integrated Wireless Network, we are embarking on a program that 
is going to take about, give or take a year or so, 5 years to 
get that rolled out across the country. And that will provide a 
long-term solution to the interoperability problem, but there 
are shorter-term solutions which we also have in the mix 
because we realize it is going to take a while to get it. There 
are technical solutions to solve the interoperability problem 
between different law enforcement organizations who happen to 
operate on a different standard. They are in existence today.
    One of the things--again, back to Katrina, mobility is one 
of the things that is important. I mean, if all your 
infrastructure is out, being able to bring in something which 
is mobile on the back of a truck or something like that to 
power the equipment is something that I think really came home 
in that kind of an emergency situation.
    But on the standards issue, as I said, I think standards by 
definition is a longer-term issue, longer-term solution to 
problems. It is the ultimate solution, but it is a longer-term 
solution. But there are shorter-term answers that we have to 
have in the mix also.
    Chairman Tom Davis. Mrs. Schmidt.
    Mrs. Schmidt. Thank you very much. I am not sure on the 
panel who should answer this, maybe all three of you. I think 
one of the biggest glitches with Hurricane Katrina was the 
inability for people all over the ground to communicate with 
each other, and I know that can be a local, a State, and a 
Federal issue.
    From the Federal perspective, how can we coordinate 
communication so that the people on the ground know what is 
happening better. And I know that there are going to be some 
proposals later from people outside of Government talking about 
this very issue. What kind of sensitivity do we have from a 
governmental perspective of a security of information 
perspective? And how can we make the whole issue of 
communicating efficiently and effectively better, and better 
pretty soon? Because the next natural disaster or, God forbid, 
terrorist disaster could happen at a moment's notice.
    Mr. Verga. That, of course, is the nugget of what we are 
trying to do. One of the things that you have highlighted is 
that there is a fundamental difference between interoperability 
of communications, that is, existing communications being able 
to work together, and the operability of communications. What 
we discovered in Katrina was the issues were more on the basic 
operability of the communication side rather than the 
interoperability. There were interoperability issues, that is, 
system A and system B were not compatible, couldn't talk to 
each other. There are a lot of initiatives underway to fix that 
particular part of the problem.
    But in a situation where you have the majority of the 
communications infrastructure, not just the public safety and 
security communications infrastructure, but the common 
infrastructure generally that is destroyed, the fundamental 
policy question is sort of what is the role of the Federal 
Government in this case in restoring those communications in a 
disaster area. Most of the communications are commercially 
owned, so how do you communicate with the American people? 
Hundreds of radio towers are down. Television stations are off 
the air. The normal means of communicating with the American 
people were not available.
    So what, in fact, then is the role of the Federal 
Government in restoring that communications infrastructure in a 
disaster area?
    Dr. Wells. One of the initial proposals, for example, was 
that the Department of Defense or the Department of Homeland 
Security should stockpile radios that could be handed out in 
this type of emergency. Well, part of the problem is given the 
pace of technology today, if they have a warehouse full of 
radios that are degrading at the rate of Moore's Law, or 
whatever, it is not a very attractive way to do business.
    There have now been a number of proposals to tap the genius 
of the private sector, especially for the nongovernmental, and 
so one example, for example, is use leased services that says I 
need to be able to have a certain amount of communications up 
and a certain amount of communications down at three spots 
anywhere in the United States within 12 hours. And, you know, 
we will keep you on retainer to be able to provide that 
capability, and maybe 10 spots in 72 hours.
    So this type of approach gets the Government out of the 
business of warehousing equipment that could be obsolescent, 
allows for the continual upgrading of the capabilities, and 
involves the private sector more.
    A related piece of this is that technology in this case is 
actually on our side because the Internet protocol, which is 
the basis of so much of our Internet communications, is now 
being able to be extended to mobile communications as well. And 
that then allows you to bridge lots of different incompatible 
systems, and I think that should be able to help.
    If I may make one final point that the Congress could help 
with, the emergency responders, the keepers of critical 
infrastructure--power, water, telecommunications--are not now 
designated under the Stafford Act as emergency responders, and 
this got into problems in at least Wilma, I don't know about 
Katrina, but of people who wanted to go in and restore 
telecommunications, not being allowed through the security 
boundaries because they had no valid credential as an emergency 
responder. And so if there are ways to make adjustment to that, 
I think it could be a real term fix.
    Mrs. Schmidt. Mr. Chairman, may I have a followup?
    Chairman Tom Davis. Yes, go ahead.
    Mrs. Schmidt. In followup to this, gleaning through future 
people that will be before us today, one of the things that 
came out of additional testimony is an apparent lack of 
leadership on the ground, who was really in charge. You talk 
about people that wanted to help and didn't have a clearance to 
help. Should we have a designated body at the Federal level 
that, when a disaster hits a community, whatever agency at the 
Federal level will be ultimately and automatically in charge so 
that you don't have the tension that may have been created on 
the ground between two competing agencies, maybe a State, maybe 
a local? And let me tell you where I am coming from. I know 
that in some cases, there are laws that are written in various 
States and in various communities that these local agencies 
have a certain jurisdiction. And it is not a turf battle of 
power. It is a turf battle of the way those local laws are 
written. And I don't think it is incumbent upon us to demand 
that those laws be rewritten, but I think it is incumbent upon 
Congress to figure out that in certain cases--a national 
emergency, a hurricane disaster at the level of Katrina--that 
somebody supersedes those locals on the ground so that we do 
not have this kind of confusion.
    Having said that, how do you think that should be and who 
do you think should ultimately be the decisionmaker?
    Mr. Verga. You have addressed what is one of the 
fundamental challenges of federalism when you talk about how 
the Federal Government responds to any situation that is local 
in nature. The current national policy is, of course, that 
initial responsibility for responding to disasters of any type 
is within the local officials and then with the State 
officials. And that is embodied essentially in the Stafford Act 
as the legislation that talks to how we respond to disasters.
    The legislation that established the Department of Homeland 
Security gave to that Department the responsibility for 
coordinating the national response to any type of emergency, 
natural disasters included. The principle that it operates 
under is one of unity of effort as opposed to unity of command, 
which is a term which is near and dear to the military. We 
always know who is in command of military forces. When you talk 
about organizing the efforts of everyone from a parish sheriff 
to the Federal Emergency Management Agency and the Department 
of Defense, that is a coordinating effort, not a command 
effort. The command, you know, on the Federal side comes 
together only at the President, and in the local side it 
depends on the State, how different States are organized--
Commonwealths, States, those types of things.
    My personal view is I am not sure there is, in fact, a 
legislative solution to that issue. The White House did an 
extensive study, as you are aware, which was recently 
published, on the lessons learned from Hurricane Katrina that 
talks to how we better organize the Federal effort to assist, 
but I don't think contemplates removing or superseding the 
authorities of State authorities beyond those provisions of the 
law which already exist. There are several provisions in the 
law that go back in history that allow, upon request of the 
State or, in the absence of a request, upon the determination 
of the President, that Federal authority needs to be asserted 
in a given jurisdiction, that can occur.
    So I think the mechanisms are probably there. I think if 
there is something that Congress can do that can help, it's to 
assist in implementing those types of standards that make that 
process of getting the unity of effort to work better in terms 
of how moneys are appropriated, grants are given, those sorts 
of things.
    Chairman Tom Davis. OK. Thank you very much. I have one 
other question.
    Dr. Wells, in your written testimony, you discussed the 
need to establish social networks of Federal, State, and local 
partners as a critical component of successful response to 
catastrophic events. You state that one of the problems with 
the response to Hurricane Katrina was the lack of familiarity 
with each other's operating practices and experiences gained 
through exercises between the U.S. military and Federal, State, 
and local partners.
    I think that is true. Although they had gone through the 
Hurricane Pam exercise at some time, you know, in an effort to 
try to get there, what efforts have you all taken to establish 
social networks? Can you describe briefly any exercises you 
have or plans you have with these partners?
    Dr. Wells. I mentioned earlier the Strong Angel series. 
There have been two of those that have expressly been looking 
at how, in the first case, military medicine reaches out to 
nongovernmental organizations in refugee situations; the second 
focused on Iraq and Afghanistan stabilization and 
reconstruction operations and sort of an Arab world type 
situation; a third this summer will focus--in August, will 
focus on an avian flu sort of situation, with more domestic, 
State and local responses.
    Where this bore fruit was in tsunami, particularly, but 
also the group came together for Katrina, where we developed a 
virtual emergency operations center built around a commercial 
collaborative tool, and in there, there were over 600 people, 
and you could go in--who had sort of signed up. It was all 
voluntary. So you could say, ``I need neurosurgeons who speak 
Bahasa Indonesia and also have had experience in southern 
Thailand,'' and find such people to go and work the problem. 
That group has sort of stayed virtually together and is 
available to be brought to bear on, you know, contingencies 
around the world, including domestic ones.
    So it has been an ad hoc type of effort, but I think these 
types of--the only way you get the trust among these groups--I 
mentioned the case in Indonesia where the doctors could walk 
into the U.N. liaison center and be greeted because they were 
one of them. You cannot just say, ``OK, you are in charge today 
and go bond with the people of New Orleans.'' If you have not 
built up those relations over time, it will be very hard.
    So I think this is something we need to establish--to 
continue doing, and it will probably be regionally based. The 
people who would respond best in the Gulf Coast may be 
different than those who would go to San Diego in case of an 
earthquake. And so as we build this corps, we just need to 
understand the strengths and weaknesses and be able to mix and 
match on the fly, using information technology, to put together 
the best team for the situation required.
    Chairman Tom Davis. Thank you very much.
    I want to thank this panel. It has been very helpful for 
us. We appreciate the job that all of you are doing. The 
challenges remain ahead. So I will dismiss this panel and take 
about a 1-minute recess as we get our next panel.
    Thank you very much.
    [Recess.]
    Chairman Tom Davis. We will recognize our second panel. We 
have John Brennan, president and CEO of the Analysis Corp. 
Thank you for being with us. Dr. Donald F. Kettl, the director 
of the Fels Institute of Government at the University of 
Pennsylvania. Dr. Brian Jackson, a physical scientist at the 
RAND Corp. And Lieutenant Steve Lambert, Virginia Fusion 
Center, Virginia State Police.
    I want to thank all of you for being here. I am going to 
ask you to rise and raise your right hands.
    [Witnesses sworn.]
    Chairman Tom Davis. Thank you.
    We will start, Mr. Brennan, with you. We may have a vote in 
about half an hour, and so I am going to try to get through. 
Once the bells ring for the vote, we will have about 10 minutes 
before I will have to go over to vote. But it will be our goal 
to try to finish up at that point and get you out of here. So 
if you can keep your testimony to 5 minutes, your total written 
statement is in the record, and my questions are based on 
having gone through that. Thank you very much. Mr. Brennan, you 
may start. And thanks again for being with us.

   STATEMENTS OF JOHN BRENNAN, PRESIDENT AND CHIEF EXECUTIVE 
   OFFICER, THE ANALYSIS CORP., McLEAN, VA; DONALD F. KETTL, 
     DIRECTOR, FELS INSTITUTE OF GOVERNMENT, UNIVERSITY OF 
  PENNSYLVANIA, PHILADELPHIA, PA; BRIAN A. JACKSON, PHYSICAL 
 SCIENTIST, RAND CORP.; AND LIEUTENANT STEVE LAMBERT, VIRGINIA 
              FUSION CENTER, VIRGINIA STATE POLICE

                   STATEMENT OF JOHN BRENNAN

    Mr. Brennan. Good morning, Mr. Chairman. Thank you very 
much for the invitation to appear today. The views I offer 
today are my own, but they are informed by 25 years of 
experience as a CIA official as well as by my tenure as head of 
the Terrorist Threat Integration Center and of its successor 
organization, the National Counterterrorism Center.
    The term ``information sharing'' has become one of the most 
frequently used phrases in Government since the devastating 
terrorist attacks that occurred on September 11, 2001. Members 
of Congress as well as senior officials in the executive branch 
have railed against the lack of sufficient sharing of critical 
information among Government agencies. The problem has been 
attributed, at various times, to institutional stovepipes, 
bureaucratic malaise, turf battles among agencies, excessive 
security requirements, mismanagement of IT resources and 
budgets, and a lack of strong and visionary leadership. I do 
not disagree that these factors have played a role in 
preventing the flow of relevant information in a timely fashion 
to departments, agencies, and individuals in need of such 
information.
    But these factors have been allowed to flourish because of 
a much more fundamental systemic problem that afflicts our 
Government and our Nation in dealing with matters such as 
terrorism, hurricanes, a potential avian flu pandemic, or other 
challenges that may be on the horizon. The systemic problem is 
the absence of a coherent national framework that integrates 
and delineates roles and responsibilities on issues of major 
significance. Such a framework is the essential prerequisite to 
an effective information sharing regime that optimizes the 
formidable capabilities, knowledge, and expertise that are 
available in Federal, State, and local governments as well as 
in the private sector.
    The purpose of sharing information is to ensure that 
individuals, departments, and organizations are able, in a 
timely fashion, to take some action or to perform some function 
for which they are responsible. Such actions and functions 
include warning and notification, protection and security, 
analysis and forecasting, rescue and recovery, policy 
decisionmaking, preparedness, and consequence management--just 
to name a few. The challenge for information providers, 
however, is that these diverse responsibilities are shared by 
many and are scattered across Federal, State, and local 
jurisdictions.
    In the absence of an overarching framework, or ``business 
architecture,'' that effectively integrates and articulates 
these responsibilities, the collectors, knowers, and stewards 
of relevant information are forced to make presumptive 
judgments about ``who'' needs access to ``what.'' Similarly, 
the wanters of information are unsure to whom and to where they 
should look for information that addresses their needs. 
Confusion on both sides of the information divide has stymied 
the development of a symbiotic and synergistic relationship 
between information providers and users.
    Unfortunately, it will take our Nation many years to adapt 
our outdated 20th century institutions, governance structures, 
and day-to-day business processes so that we may more 
effectively meet the challenges of the 21st century. In the 
meantime, and based on my experience setting up counter-
terrorism organizations and information sharing practices 
across the Federal Government, I strongly recommend the 
establishment of a common information sharing and access 
environment that can be utilized by the providers and users of 
natural disaster information--whether they be Federal, State, 
or local officials, law enforcement agencies, the private 
sector, or U.S. persons seeking information so they can make 
appropriate decisions for themselves and for their families.
    Specifically, I recommend the establishment of a Web-based 
portal on the Internet that would serve as a National Hurricane 
Information Center. Administered by the Federal Government, the 
portal would allow authorized information providers to post 
information and enable users to self-select information they 
need. Such a portal could serve as a one-stop shopping data 
mart containing virtually limitless archived and new 
information related to hurricanes, such as emergency contact 
information, weather reports, maps, first responder 
directories, hospital and health care providers, casualty and 
damage information, critical needs relief providers, security 
bulletins, shelter locations, and other relevant matters. 
Information could be organized and searched according to 
functional topics, geographic regions, or chronologically.
    The portal could be constructed in a very flexible and 
versatile manner. In addition to providing general information 
to anyone who logs on as well as password-protected proprietary 
information accessible only to authorized users, the portal 
could serve as a communication mechanism among communities of 
interest, such as first responders. Unlike in the intelligence 
community, where complicated security requirements and multiple 
classified information networks inhibit the creation of a 
common information sharing environment, natural disaster 
information is not so encumbered. Thus, the ubiquity and 
robustness of the Internet makes it the ideal information 
sharing and information access platform for the Nation.
    While the Federal Government would design and maintain the 
portal, there would need to be shared responsibility for 
posting, managing, and updating the content according to an 
agreed-upon business framework. The Federal Government also 
would have the responsibility for ensuring the portal's 
availability during emergencies and periods of peak activity 
and for the deployment of back-up systems when infrastructure 
is damaged. While this portal would not take the place of 
established information technology networks that serve as 
command-and-control mechanisms for individual departments and 
agencies, the portal would serve as a shared, collaborative 
information sharing and information access environment 
transcending individual entities.
    Our Nation faces numerous challenges in the years ahead. In 
my view, confronting these challenges successfully hinges 
squarely on the Federal Government's ability to integrate 
capabilities and to leverage technology in an unprecedented 
manner within a national framework.
    I look forward to taking your questions.
    [The prepared statement of Mr. Brennan follows:]

    [GRAPHIC] [TIFF OMITTED] T7721.049
    
    [GRAPHIC] [TIFF OMITTED] T7721.050
    
    [GRAPHIC] [TIFF OMITTED] T7721.051
    
    Chairman Tom Davis. Thank you very much.
    Dr. Kettl.

                  STATEMENT OF DONALD F. KETTL

    Dr. Kettl. Mr. Chairman, thank you very much for the 
opportunity to appear before you this morning and to explore 
these issues about information sharing and operational 
awareness. The report by the Select Committee on Hurricane 
Katrina has already made an important national contribution to 
the question of how best to try to share information and to 
build a robust national system that could respond to the issues 
that we face.
    The fundamental problem, however, is that we have too much 
thinking from the top down and not enough from the bottom up, 
and our principal goal needs, indeed must be, to create a 
system from the top down that works from the bottom up. That is 
the real driving meaning of what operational awareness means, 
to make sure that as we construct our systems, that it is real 
for the citizens who need help. And as the Select Committee 
identified, we have important issues about communication as 
well as command that we need to try to deal with.
    The committee today has identified four basic questions 
that it wants to explore: culture, technology, structure, and 
bureaucracy. And as you sort through this, the thrust of both 
my testimony and of some of the other lessons that you have 
heard is how important the cultural piece is in establishing 
leadership and produce results.
    The fundamental question here is what it is that we need to 
be focusing on. The focus so often on the cultural side is on a 
narrow stovepipe view of issues, but those issues and those 
structures never match the way the problems actually occur, 
whether on issues of terrorism or natural disasters. We need an 
all-hazard approach at the grass-roots level that will allow us 
to create a capacity for the Government to respond to the 
problems as they, in fact, arise.
    The second thing is that we clearly have some technological 
issues that we need to face, in part making sure that we have 
communications systems that work in times of disaster and that 
connect with each other in times of disaster. I have talked 
with National Guard officials in Louisiana who have told me 
that one of the biggest problems that they had, even with 
people from the National Guard from around the country arriving 
to try to help, was that they arrived with radios that could 
not talk to each other, even within the National Guard. And 
those are issues that, Mr. Chairman, we fundamentally have to 
deal with.
    We have some structural issues. If we had it do over again, 
we probably would not put FEMA inside the Department of 
Homeland Security, but we also know that continual disruption 
to FEMA's operations would only get in the way of getting the 
job done. The more fundamental issues are that we really cannot 
design any single structural solution that is guaranteed to 
solve whatever problem we face. The lesson of an all-hazards 
approach means that we must have a much more flexible and 
dynamic system that adapts our governmental operations and 
capacity to the problems that, in fact, we do confront.
    One of the interesting things, in fact, is to look at 
FEMA's regional boundaries and compare that to the path of 
Hurricane Katrina, and Hurricane Katrina somehow miraculously 
found precisely the dividing line between the regions. There is 
no reason to think that if we were to redesign the regions that 
we would then not simply confront the same set of problems the 
next time we face an issue like this.
    The last piece has to do with the bureaucracy, and it is 
clear that we have rules and procedures and other things that 
too often get in the way. What is also clear is that 
operational awareness teaches an important lesson, that if we 
focus on results to focus on outcomes, we can focus all those 
throughout the system on what it is that really matters most.
    The good thing is that this is not simply a matter of 
hypothetical conjecture. We have clear, demonstrated results 
from people on the front lines who have proven that this 
approach works. Part of that comes from the work of people like 
Admiral Thad Allen, who played such an important role in 
coordinating the Federal effort in New Orleans. Part of it has 
to do with lessons taught on the morning of September 11th just 
across the river here in Arlington County, where Federal, 
State, and local officials worked together in a remarkably 
seamless way. It is almost as if, Mr. Chairman, they had read 
and could have written your report on Hurricane Katrina because 
they already have demonstrated the lessons of what it is that 
works.
    So, in short, Mr. Chairman, we know what it is that works, 
and we know that it can be done. We know that what it requires 
most is strong and effective leadership. A lot of people 
sometimes say that it is just a matter of rocket science, or it 
is not rocket science. Well, in a sense it is rocket science 
because if you look at the ways in which people, in fact, 
launch rockets, they get people from the different disciplines 
together in the same room, they work together, they 
collaborate, they share information and work together under a 
single command to decide what has to be done, how it has to be 
done, and make sure that those effective disciplines come 
together in the way to make the right decision.
    In a sense it is rocket science, and in a sense the lessons 
of rocket science are the same lessons that we learned on the 
morning of September 11th at the Pentagon. Effective, 
coordinated response on the part of Federal, State, and local 
officials is something that we know how to do. What we need to 
learn how to do is to figure out how to do it more often, more 
predictably, and more regularly.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Dr. Kettl follows:]

    [GRAPHIC] [TIFF OMITTED] T7721.052
    
    [GRAPHIC] [TIFF OMITTED] T7721.053
    
    [GRAPHIC] [TIFF OMITTED] T7721.054
    
    [GRAPHIC] [TIFF OMITTED] T7721.055
    
    [GRAPHIC] [TIFF OMITTED] T7721.056
    
    [GRAPHIC] [TIFF OMITTED] T7721.057
    
    [GRAPHIC] [TIFF OMITTED] T7721.058
    
    [GRAPHIC] [TIFF OMITTED] T7721.059
    
    [GRAPHIC] [TIFF OMITTED] T7721.060
    
    [GRAPHIC] [TIFF OMITTED] T7721.061
    
    [GRAPHIC] [TIFF OMITTED] T7721.062
    
    [GRAPHIC] [TIFF OMITTED] T7721.063
    
    Chairman Tom Davis. Thank you.
    Dr. Jackson.

                 STATEMENT OF BRIAN A. JACKSON

    Dr. Jackson. Thank you. Mr. Chairman, thanks for inviting 
me to participate in today's hearing. I should begin by saying 
that my remarks are principally based on our published study 
entitled, ``Protecting Emergency Responders: Safety Management 
in Disaster and Terrorism Response,'' which was a joint 
research effort between the RAND Corp. and NIOSH, the National 
Institute for Occupational Safety and Health.
    The focus of our study was on safety management, which is, 
of course, a subset of overall disaster management. Many of the 
recommendations focused on improving safety management are 
focused on information sharing and are, therefore, very 
relevant, looking at sort of a specific case within management 
of an overall disaster. In our study, we looked at four 
disasters: the two September 11th responses, which have been 
mentioned previously; Hurricane Andrew in 1992; and the 
Northridge earthquake, to, again, sort of build on we have been 
learning these lessons over a long period.
    Our work was done in close collaboration with the emergency 
responder community, including folks who were involved in 
managing those response operations, and our recommendations 
were also vetted by other emergency responders, so this is 
really something that is coming from the responder community.
    I really want to focus in on three major lessons to sort of 
pull out some of the elements from my written testimony.
    First, disaster response operations have different levels 
of information sharing requirements. We have been talking about 
this as sort of, you know, one topic, but to manage responder 
safety, for example, the incident commander at the scene needs 
strategic-level information: what injuries are happening to the 
responders and what things they can take--changes in the way 
that the response is done--to keep them safe.
    At the tactical level for individual responders, the 
information sharing requirement is very different. Getting 
information about what safety actions they need to take to 
protect themselves. Again, going back to the September 11th 
response, the question about which respirator to wear when is a 
very important and operational issue when you are dealing with 
a large-scale event.
    This suggests that there is a requirements generation 
process that is needed in this to ensure that the information 
that individual responders, whatever level of safety management 
they are, gets there when they need it. And also differences 
that exist across the country, even looking at the four cases 
that we examined in areas with capable response organizations, 
imposing a one-size-fits-all sort of solution from the top 
down, there are risks associated with doing that because of the 
differences in the way the response organizations structure 
themselves and manage themselves. Furthermore, sort of the 
answer of getting all information to everyone at all times, to 
sort of echo one of the points that was made earlier, is also 
problematic because if you have to sift the critical 
information that you need out of a very large background of 
useful but perhaps not immediately useful information, more 
sharing may actually result in the information needs of the 
responders not being met.
    Second, the goal is not just getting information there. It 
is having responders be able to use it when they get there. So 
the other part of the equation about making sure that the way 
information is presented to different response organizations at 
these multi-agency responses is important. The example from the 
safety case, telling a responder that a certain contaminant is 
at 20 parts per million in the air may be entirely irrelevant 
if you do not know whether that is a hazard, or if it is a 
hazard, what you should do as a response to it.
    And then, last, again echoing a point made by other 
witnesses, although technology clearly has a role to play here 
and failures in technology can result in bad information 
sharing, information sharing is really driven in large part by 
people. In a disaster, managers need to know what organizations 
to reach out to. If they don't have existing relationships with 
those organizations, the time-critical point after a disaster 
is not the time they will be looking for the relationships to 
build. They have to trust the information that they get back so 
they can actually act on it and use it in what is generally a 
life safety situation. And so as a result, having 
representatives meeting each other for the first time in a 
disaster working operation is not a good recipe for success.
    So as a result, our core recommendation in our report was 
the need for individuals to play this role of human bridges. We 
were looking at safety so we focused on individuals we called 
disaster safety managers. Again, recognizing differences 
between areas, we did not see this as something that was coming 
down from the Federal Government, but, again, bringing you back 
to some of these sort of human network recommendations you 
heard earlier, safety managers have to be local enough that 
they have these relationships with the organizations that will 
be cooperating if a disaster happens in their area, but also 
have the knowledge to know where and how to reach up to the 
Federal or other national level organizations that will either 
be coming to join or support an operation. To us, that suggests 
that a model sort of designating individuals drawn from either 
Federal, State, or local organizations where part of their job 
was to build and maintain those connections.
    So, in closing, I would like to thank you again for the 
opportunity to address the committee today, and I look forward 
to answering any questions.
    [The prepared statement of Dr. Jackson follows:]

    [GRAPHIC] [TIFF OMITTED] T7721.064
    
    [GRAPHIC] [TIFF OMITTED] T7721.065
    
    [GRAPHIC] [TIFF OMITTED] T7721.066
    
    [GRAPHIC] [TIFF OMITTED] T7721.067
    
    [GRAPHIC] [TIFF OMITTED] T7721.068
    
    [GRAPHIC] [TIFF OMITTED] T7721.069
    
    [GRAPHIC] [TIFF OMITTED] T7721.070
    
    [GRAPHIC] [TIFF OMITTED] T7721.071
    
    [GRAPHIC] [TIFF OMITTED] T7721.072
    
    [GRAPHIC] [TIFF OMITTED] T7721.073
    
    Chairman Tom Davis. Lieutenant Lambert.

                   STATEMENT OF STEVE LAMBERT

    Mr. Lambert. Good morning, sir. I am Steve Lambert. I am a 
lieutenant with the Virginia State Police and the agent in 
charge of the Virginia Fusion Center. Thank you for the 
opportunity to testify today in this important process, and I 
look forward to answering any questions you may have at the end 
of this testimony.
    After September 11th, law enforcement agencies were forced 
to rise and meet the informational demands created by the 
increased focus on terrorism. The resources needed to provide 
proactive intelligence operations have increased exponentially. 
This mere fact has compelled many States and regions to develop 
Fusion Centers that bring together key critical response 
elements in a secure, centralized location in order to 
facilitate the sharing of counterterrorism intelligence 
information.
    Virginia now has such a center with the primary mission of 
fusing together key counterterrorism resources from local, 
State, and Federal agencies, as well as private industry, in an 
effort to prevent the next terror attack. Our second mission, 
in support of the Virginia Emergency Operations Center, is to 
centralize information and resources to provide a coordinated 
and effective response to a terrorist attack or a natural 
disaster.
    It is our contention that having a Fusion Center does 
alleviate much of the previous resistance to sharing 
information that has plagued Government response in the past. 
This business of where to get needed information or just what 
is available or who can I depend upon for such information can 
be a terribly confusing process to most any Government or 
private agency. The bottom line is that Fusion Centers provide 
a fundamental environment necessary for Federal, State, and 
local governments to have the proper intelligence and 
situational awareness to perform their jobs.
    Furthermore, and perhaps most importantly--it has been 
mentioned several times--Fusion Centers are conceptualized to 
provide the environment of trust between locals to State and 
State to Federal Government agencies. This issue of trust is 
absolutely essential. All methods, policies, principles, and 
techniques are rendered useless if trust is not established 
between these partners. So essentially the fusion process has 
created horizontal and vertical bridges for information and 
intelligence sharing.
    To answer the question the committee is particularly 
interested in--``Are impediments to more effective information 
sharing primarily technological, or structural, cultural, and 
bureaucratic in nature?''--the answer from our perspective is 
that the Fusion Center concept provides a structural solution. 
It also provides the all important cultural or trust solution. 
It also provides somewhat a bureaucratic solution and to some 
extent a technological solution. However, there still exists a 
foundational and technological hindrance that applies to 
effective disaster response.
    As you know, part of the intelligence process involves 
identifying gaps in intelligence, and with that, and to my 
understanding, only a few States have achieved a truly single 
statewide real-time information and intelligence sharing 
platform. Although the Fusion Center has taken significant 
strides toward centralizing this process, there still exists a 
serious lack of centralized analysis and dissemination function 
on all criminal intelligence. We all know that good terrorism 
prevention is good crime prevention and vice versa. However, 
and like many States, Virginia currently has a statewide 
information sharing system that suffers from poor participation 
due to being totally law enforcement centric--excluding all 
crimes and all hazards--and running on an antiquated 
architecture. There are simply too many silos. Too much 
criminal information is being shared by word of mouth and 
through personal relationships rather than on a single, Web-
based, real-time information sharing platform.
    The solution to this foundational problem, however, 
provides tremendous opportunities to revitalize the 
intelligence process by providing training and including 
eventually all Virginians in the intelligence process. Taking 
advise from the 9/11 Report, Virginia has planned to adopt, ``a 
decentralized network model, the concept behind the information 
revolution, that shares data horizontally too. Agencies would 
have access to their own data bases but those data bases would 
be shared across agency lines. In this system, secrets are 
protected through the design of the network and an information 
rights management approach that controls access to the data, 
not the access to the whole network.''
    Therefore, and in conclusion, how can we avoid the 
inadequate information sharing and murky situational awareness 
that characterized the governmental response to Katrina? 
Establish a Fusion Center or Fusion Centers built on the 
foundation of a truly integrated, Web-based, statewide 
information sharing platform that includes all crimes and all 
hazards.
    Thank you very much, sir.
    [The prepared statement of Mr. Lambert follows:]

    [GRAPHIC] [TIFF OMITTED] T7721.074
    
    [GRAPHIC] [TIFF OMITTED] T7721.075
    
    [GRAPHIC] [TIFF OMITTED] T7721.076
    
    Chairman Tom Davis. Well, thank you very much.
    The votes beat us to it. What I am going to do is take a 
20-minute recess, and we will come back and try to move through 
the questions in short order.
    So I will declare a 20-minute recess, and we will be back. 
Thank you.
    [Recess.]
    Chairman Tom Davis. The committee will reconvene.
    Dr. Jackson, let me start with you. Despite the existence 
of the Hurricane Pam exercise, Katrina showed how even when you 
predict a disaster, you train for it, it almost always is not 
sufficient. How do you get people at all levels of Government 
to get on the same page for preparedness and training?
    Dr. Jackson. Well, in talking to the responders in our 
research process, the answer that we got from them about that 
is that it is not a single exercise. It is relationships built 
over time.
    One of the issues about the safety area in particular is 
that, in contrast to information sharing areas where you can 
articulate the information that you want to share beforehand, 
in the safety area it is entirely dependent on the nature of 
the disaster. So you have to be able to be flexible to reach 
out through relationships that you perhaps would not have 
thought would be important beforehand. And so, really, the only 
answer to that is sort of, you know, repeated interactions 
between responders during preparedness activities, in 
exercises. The experience at the Pentagon was cited earlier by 
one of the panelists. That is an example where that repeated 
experience over time and the fact that the responders involved 
had built up those relationships and trust meant that they 
could adapt flexibly and have the operation go much more 
smoothly.
    Chairman Tom Davis. So it's like any teamwork, isn't it? 
You do your training and your training and your training, and 
one session does not do enough to create the kind of teamwork.
    Dr. Jackson. Absolutely. You play like you train. And, you 
know, on these relationships, you know, when--especially, there 
will always be people who rotate in and out of jobs, you know, 
within the Federal Government, within the State responder, 
local responder organizations. There are people who get 
promoted and move on. And so you need this ongoing process over 
time, because even if you buildup the relationships today and 
they are perfect, if, you know, three of those people go on to 
be promoted and take other jobs, you need to do it again 
tomorrow.
    Chairman Tom Davis. So it is practice, practice, practice.
    Dr. Jackson. Right.
    Chairman Tom Davis. Dr. Kettl, in your opinion, has the 
Department of Homeland Security sufficiently integrated the 
local and State emergency management functions to ensure a 
coordinated emergency response?
    Dr. Kettl. Among the many concerns, Mr. Chairman, I have 
about the Department of Homeland Security, my biggest concern 
is the lack of integration of State and local issues into the 
Department of Homeland Security. To be fair to them, they have 
an enormous challenge in trying to bring 22 different agencies 
together into a coordinated whole, but the fact is that all 
homeland security events begin as local events. And the 
instinct, as unfortunately we saw in Katrina, is not to view 
State and local responses as critical or integral to their 
operations. It is perhaps the next generation of responses, but 
it is a generation that needs to be sped up enormously.
    If there is anything that the Department of Homeland 
Security needs most to do is to devise a far more effective 
partnership with State and local governments.
    Chairman Tom Davis. Yes, I agree with you. Just trying to 
take 170,000, 180,000 employees in 22 agencies, different 
cultures, different systems, different silos, I think sometimes 
our expectations are out of whack to expect that to work 
overnight. And we saw with Katrina that just their own internal 
communication was not what it ought to be.
    Dr. Kettl. I fear that is right, Mr. Chairman. But the 
point--and this is the source of greatest worry--is that 
process of trying to integrate all of these complex pieces 
together has created a kind of top-down approach within 
Homeland Security, which is understandable. But in the end, 
Department of Homeland Security operations will only work if 
they are real from the bottom up and show a sense of 
operational awareness. And we learned the hard and painful way 
in the aftermath of Katrina that those instincts, 
unfortunately, are not there.
    Chairman Tom Davis. Right, and that was an unforgiving 
storm.
    Mr. Brennan, you testified that we lack a cohesive national 
framework for emergency response. Have you looked at the 
National Response Plan, which really never had a chance to be 
implemented with Katrina because we had----
    Mr. Brennan. Yes, Mr. Chairman, I have.
    Chairman Tom Davis. What do you think it needs? To be 
enhanced? Scrapped? What are your thoughts on it?
    Mr. Brennan. It is a very bulky document that I think a lot 
of people do not understand, and it has not really been 
absorbed within the Federal Government or beyond. I think there 
are some good ideas and concepts in there, but it also runs 
afoul of some of the existing statutory responsibilities, 
authorities, and there are a lot of differences of view about 
the roles and responsibilities of individual departments and 
agencies even under that National Response Plan.
    Chairman Tom Davis. Also, I mean, if you do not train on 
it, it is such a big plan you are not going to wait for the 
storm to hit and then read the plan in terms--if you do not 
train on it--right?--if you do not practice on it, it is not 
going to do you really any good when the big storm hits, is it?
    Mr. Brennan. Right. I think it is--as difficult as it was 
to draft a document like that, it is much more difficult to 
implement it. It is like a piece of legislation. You know, as 
difficult as it is to get it through the legislative process, 
actually operationalizing it is a far cry from passage of that 
legislation.
    Chairman Tom Davis. Do you think it has too much 
flexibility, or do you think it is too prescriptive? Do you 
have any thoughts on that?
    Mr. Brennan. It has been a while since I have looked at it, 
and I think now is the time, after Katrina, to take a really 
hard scrub at it and see why aspects of it did not work. But I 
think some of the underlying structures that it really would 
need in order to be realized still are absent.
    Chairman Tom Davis. I would just tell you that I know the 
problem we had with Katrina was that Michael Brown did not 
believe in the National Response Plan, because in Florida in 
2004, an election year, a key State, he was given kind of carte 
blanche to do what he needed to do. He was talking directly to 
the White House. The National Response Plan changes all that. 
He has got to go up through a chain of command, and he was not 
used to that and did not think he needed to do that. And it 
seemed like about halfway through, all of a sudden the White 
House is saying, look, you better go through channels on this. 
That led to frustration, and the e-mails show that we just kind 
of crumpled under that.
    Mr. Brennan. Structure, discipline, and 
institutionalization of these efforts really is just a 
prerequisite to actually making things work well in emergency 
situations.
    Chairman Tom Davis. Now, you have had experience with DIA 
and the FBI and other intelligence agencies. What strategies 
and tactics do you think are the most effective in getting 
everybody to play ball?
    Mr. Brennan. Well, there are many different aspects of the 
ball game. On the information sharing side, in my testimony I 
talked about the importance of having a common information 
sharing environment. When I set up the TTIC and the NCTC, we 
had something called TTIC Online and then NCTC Online that all 
the different stakeholders would be able to provide information 
to. So it was a one-stop shopping.
    And I think if you take it away from a single department 
solution or a single functional sort of area, you know, what--
it is not a defense issue. It is not an FBI issue. It is not a 
law enforcement issue. It is not even a single strata issue, as 
far as Federal, State, or local. You need to have something 
that is going to bring things together, and there are many 
different aspects of it: information sharing, communication 
that we have talked about, command and control. And that is why 
I really do think a lot of our governance structures and 
institutions are very much outdated to deal with 21st century 
problems.
    Chairman Tom Davis. OK. Thank you very much.
    I think one of you mentioned and in the previous panel they 
mentioned about how too much information could be a dangerous 
thing. How does too much information hurt you? Just the ability 
to sort it out and prioritize? I mean, can somebody explain 
that to me?
    Dr. Jackson. Well, I was one of the people that echoed the 
earlier panel. I mean, too much information is a problem if 
what is important gets lost in the flow of it and you can't 
pick it out.
    Chairman Tom Davis. Right.
    Dr. Jackson. You know, a lot of our focus in our research 
was at how to protect individual responders at the lowest 
level. So, you know, you have a responder who is taking 
operational action. They have a lot of missions to accomplish 
at a disaster. They want to know what they need to know, when 
they need----
    Chairman Tom Davis. Like you say, charge that hill.
    Dr. Jackson. Yes.
    Chairman Tom Davis. Without getting into the foreign policy 
and all that kind of stuff behind it.
    Dr. Jackson. Yes. And if you have to sort of pull out what 
piece of equipment you should be wearing and what exactly you 
should be doing from, you know, an entire tome describing 
everything at the event, you are not--actually, your need, 
information need, is not being met even though the information 
has been shared.
    Chairman Tom Davis. OK. Lieutenant Lambert, let me ask you 
a couple questions. You noted that the creation of the Fusion 
Center really breaks down the resistance to information sharing 
that is ubiquitous in Government. In your experience, what has 
been the key to successfully pursuing that new approach to 
information sharing?
    Mr. Lambert. It seems like we are singing the same chord of 
trust, having the organizations that are represented, whether 
it be the FBI, the National Guard, the Department of Emergency 
Management programs, whoever the first responders are or the 
information sharers in the same room together in the same 
building. Actually building on personal relationships I think 
is probably, at least from my experience, the most important 
thing we can do.
    Chairman Tom Davis. You know, Gaebler and Osbourne wrote a 
book a few years ago called ``Reinventing Government,'' and 
they have a chapter on mission-driven Government versus 
regulation-driven Government. And one thing we found in the 
Katrina investigation is when the military came in, all of a 
sudden things got down because they were mission-driven. When 
we saw FEMA and everybody else there trying to go by the book 
and everything else--and I guess relationships play a role in 
that. But as we drill on these issues, as you practice and so 
on, are we doing enough preaching about accomplishing the 
mission? Or do we preach don't violate the rules and the 
regulations? Anybody have a thought on that? Dr. Kettl.
    Dr. Kettl. Mr. Chairman, I think that is exactly the right 
point because it both gets to the question of how to deal with 
the avalanche of information that comes down as well as the 
question of how you bring different pieces together.
    What we know is that operational awareness tends to frame 
the nature of the problems that have to be solved. If you can 
get people to agree on what problem has to be solved, it is 
much easier to bring the pieces together, and it is a lot 
easier to deal with the process of breaking down the stovepipes 
if everybody understands what their contribution is to 
evacuating people off of roofs when they are surrounded by 
floods, how to get food to people who are hungry, how to deal 
with avian flu. If the problem drives the solution, it defines 
the players who need to be involved. It focused them on the 
nature of the result. And to the degree to which you can get 
people focusing on that instead of procedures, rules, and 
structures, coordination is much, much easier. The lesson that 
people in the first response community over and over and over 
again is focus on the problem, allow that to drive the nature 
of the partnerships, and it is a lot easier to then get past 
the bureaucratic boundaries that so often hamstring action.
    Chairman Tom Davis. We have a section of the Katrina report 
where we talk about some of the unsung heroes, and a lot of 
these people, they were not going by the rules and regulations. 
We had one doctor who literally broke into Walgreen's to take 
what drugs were there before they became flooded. He got out of 
there and walked out with his bag so he could help people who 
had left home without their prescriptions and the like. We had 
other folks that were commanding boats that were just hanging 
around and that would have been flooded out otherwise, 
basically very, very mission-oriented. Even when you see the 
action movies, you never saw Steve McQueen or anybody look at 
the rules and regulations to get it done.
    Now, there is a fine line between being mission-oriented 
and abusing the rules for other purposes and so on. So, you 
know, we do the oversight on contracts and everything else. We 
have to recognize that in an emergency situation sometimes the 
rules need to be relaxed.
    I don't know how you preach that, but maybe it is the trust 
between all the elements that you discussed, the fact that they 
practiced and drilled together and have relationships which 
makes a difference and helps you define reasonable boundaries 
in times of crisis. But that seemed to be a lot of the problem 
with Katrina. You had the elements working together, but did 
not trust each other. They knew what--they sort of knew what 
the mission was. They were told what it was. But at the end of 
the day, even though we had prepositioned more assets than any 
other storm in history, it was not near enough. This storm was 
not just predicted. What happened was predictable, but nobody 
really got it. I think there was a lot of jockeying around for 
position and so on, but the storm, which was predicted with 
absolute--it was absolute in terms of what they predicted, the 
category, where it would land, but the folks down below really 
did not get it. And even though they had gone through Hurricane 
Pam, but you did not have that string of existing relationships 
that could have made a big difference in this case. This was an 
unforgiving storm. You make a mistake. It gets exaggerated just 
because of the size of it, and then the ensuing flooding.
    Let me ask Lieutenant Lambert another question. Altering 
Government agencies' perceptions of information sharing, 
viewing it as a benefit to everybody, as opposed to giving up 
turf, if you understand what I am saying, it is the biggest 
obstacle at the Federal level that we have to overcome. It may 
be a little easier at the State level to get people working 
together. You have a strong leader. You have Governor Kaine, 
let's work for the team. At the Federal level, it is a lot more 
difficult. You have a lot of entrenched career people that have 
survived a lot of administrations. Even on Capitol Hill, turf 
and jurisdiction drive this place to a great extent. A lot of 
good does not happen because people are nervous about what 
their jurisdictional battles are going to be in the future of 
their committees.
    What challenges have you faced in this area of trying to 
get around the perceptions of information sharing and turf 
battles? Have you had any firsthand experience with that in 
Virginia?
    Mr. Lambert. Well, I submit that the same turf battles that 
the Federal Government experiences also the State government 
experiences as well. And we have had to take measures to try 
and develop trust among the locals, State to local. So I can 
appreciate what they are going through.
    I know we went through a time that for some time, just 
trying to figure out who was organizing Federal intelligence, 
that we might relate with them rather than dealing with so many 
different Federal agencies. I think we have--and to DHS' credit 
here lately, they have really reached out to us, and we have 
even started a pilot of three more information portals along 
with the possibility of putting someone in the Fusion Center 
to, again, strengthen those personal relationships.
    But you are absolutely right. It is difficult to overcome 
all of the bureaucracy.
    Chairman Tom Davis. It helps to have George Foresman up 
here, too, in Washington, doesn't it?
    Mr. Lambert. It doesn't hurt. Yes, sir.
    Chairman Tom Davis. Dr. Kettl, many have suggested that 
FEMA be at the center of homeland security events. But FEMA 
really was not designed to be a first responder or even 
coordinate the first response. Isn't that right? Can you have 
FEMA at the center of all operations without enlarging its 
original scope?
    Dr. Kettl. FEMA's role, Mr. Chairman, has changed 
dramatically over time, and its organizational structure has 
changed along with it. It is clear that somebody needs to be in 
a role of playing the central coordinating function. I think of 
it as kind of a conductor of an orchestra, that you can have a 
variety of different instruments that appear before you, 
creating all kinds of different instruments depending on the 
score that orchestra is trying to play, and the key is having 
an orchestra conductor skilled enough to be able to play 
Beethoven one night and Bach the next.
    The problem is that FEMA does not see its job as either 
that orchestra conductor or it does not have the skills for 
figuring out how to do it. Somebody has to do the job.
    Chairman Tom Davis. And it should be Federal, right?
    Dr. Kettl. It should be Federal, and FEMA is as good a 
place as any to put it. Now, to do that would require, first, 
recognizing that is its job; second, getting the political 
support both from Members of Congress and from senior 
administration officials to define that, in some cases to 
provide some additional resources, but then to provide a lot of 
extra support and leadership essentially to make Lieutenant 
Lambert's job easier. FEMA's job ought to be to make Lieutenant 
Lambert's job work better, to try to provide better response in 
situations like New Orleans.
    Chairman Tom Davis. In the case of Katrina, Michael Brown 
was not just the head of FEMA. He was the Federal officer in 
charge. He was designated--he took it as a demotion, by the 
way, when it was given to him. And there probably should be 
that overlap between FEMA and the people being in charge on the 
ground, but it may be new to FEMA in the sense that they are 
not necessarily used to this. They were used to coming in 2, 3, 
4 days later and doing the mop-up work.
    OK. Well, I appreciate that. Is there anything else anybody 
wants to add?
    Mr. Brennan. If I could make just one comment?
    Chairman Tom Davis. Sure.
    Mr. Brennan. Talking about mission, the challenge is that 
there are multiple missions that are underway in any type of 
national disaster or challenge. And it is an unprecedented 
systems integration challenge that you have law enforcement, 
you have rescue and recovery, you have security, you have 
information sharing, you have policy. And my experience has 
been that there are a lot of disputes about who actually has 
that statutory authority to exercise command and control over 
disparate mission elements that are outside of individual 
departments and agencies that go beyond the Federal area. And 
that is one of the things that I think is going to continue to 
be a challenge for, you know, natural disaster response.
    Chairman Tom Davis. Thank you very much.
    I am interested in having Ambassador McNamara, who is the 
new program manager for the information sharing environment, 
testify before this committee. I know he is just getting 
settled into his new position, but is interested in appearing 
as soon as possible, and given his important role in 
information sharing across Government and the committee's role 
in setting the government-wide information policies, we would 
like him to appear here first when he is able to do so.
    I again want to thank this panel and the previous panel. It 
has been very, very helpful to us. Hurricane season begins 
officially June 1st, although it begins when it begins. And, 
you know, who knows whether disasters may strike, and we need 
to be ready for them. And I hope we have learned the lessons, 
and I hope this testimony, the administration will take it 
seriously. I know this committee does.
    Thank you very much. The hearing is adjourned.
    [Whereupon, at 12:18 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
